OIG Investigative Reports, United States v. Amy Schachter
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
U.S. Department of Justice
United States Attorney
Western District of New York
October 20, 2003
For Information Contact:
138 Delaware Ave.
Buffalo, NY 14202
(716) 843-5814
United States v. Amy Schachter
United States Attorney Michael A. Rattle announced today that Amy Schachter, age 37, of Olean, New York, was sentenced by U.S. District Judge William M. Skretny to 29 months imprisonment and ordered to pay restitution in the.amount of $248,500.
Assistant U.S. Attorney Marie P. Grisanti stated that the defendant embezzled $248,500 in student loan money from June of 1998 through July of 2002 while employed in the financial aid office of the Saint Francis School for Practical Nursing.  Ms. Schachter applied for student loans in her name and in the names of others.
Ms. Grisanti said that Schachter, in her capacity as an employee in the financial aid office for the school, falsely certified that these individuals were students at the school. When the student loan checks were received, Schachter, or a third party, cashed the checks and kept some of the money.
The guilty plea was the culmination of an investigation by the United States Department of Education, Office of Inspector General, under the direction of Inspector General John P. Higgins.
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov